WAIVER
SUPREME COURT OF THE UNITED STATES
No. 121-5354
The News Journal

Bruce Joyner

I

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Q

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

€

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filett by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:

8/16/21

Date:

(Type or print) Name Wade A. Adams Ill, Esq.

€ Mr.

0 Mrs.

0 Ms.

Firm

The Law Offices of Wade A. Adams Ill

Address

111 Continental Drive Suite 309

City & State

Newark, Delaware

Phone

302-533-3050

0 Miss

Zip 19713
Email wadams@travelers.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate be own
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter requ e EIVED
Bruce Joyner
CC:

AUG 2 3 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

